                  U.S. Small Business Administration

                           Office of Inspector General

                            Washington, DC 20416



                               September 15, 1999


TO:	         Elizabeth Montoya
             Associate Deputy Administrator for Management and Administration




SUBJECT: Survey of Electronic Records Management


        Attached is an Audit Memorandum on Electronic Records Management
(ERM). It summarizes the results of a survey we conducted of SBA’s policies and
procedures related to ERM. It also makes a recommendation that your office
implement an ERM program to meet regulatory requirements. Your response to the
draft report indicated your awareness of the importance of this issue.

       The findings included in this report are the conclusions of the Office of
Inspector General's Auditing Division. The findings and recommendation are
subject to review, management decision, and corrective action by your
office in accordance with existing Agency procedures for audit follow-up
and resolution.

        Please provide your proposed management decision for the
recommendation on the attached SBA Form 1824, Recommendation Action Sheet,
within 30 days. If you disagree with the recommendation, please provide your
reasons in writing.

        This report may contain proprietary information subject to the provisions of
18 USC 1905. Do not release to the public or another agency without permission of
the Office of Inspector General.

Attachment
                  U.S. Small Business Administration

                           Office of Inspector General

                            Washington, DC 20416




                                                   AUDIT MEMORANDUM
                                                  Issue Date: September 15, 1999
                                                  Report Number: 9-23


TO:         Elizabeth Montoya
            Associate Deputy Administrator for Management and Administration




SUBJECT: Survey of Electronic Records Management

       After completing a survey, the Auditing Division decided not to perform an
audit of SBA’s electronic records management (ERM) program at this time. We
considered an audit because (1) the agency has become increasingly dependent
on electronic records, and (2) magnetic tapes containing records needed for a prior
audit were inappropriately erased. We decided not to conduct the audit because
SBA’s ERM program is in too early a stage of development. This memorandum
contains our findings and recommendation based on the survey.

                                    BACKGROUND

       With the growing reliance on automated systems and electronic records,
electronic records management (ERM) is a challenge not only for SBA, but also for
the entire Federal Government. According to the National Archives and Records
Administration, the agency responsible for developing and providing recordkeeping
guidance in the Federal Government,

      “Electronic records pose the biggest challenge ever to recordkeeping
      in the Federal Government and elsewhere. How do we identify,
      manage, preserve, and provide on-going access to e-mail, word-
      processing documents, and other kinds of electronic records that are
      proliferating in formats, mushrooming in quantity, and vulnerable to
      quick deletion, media instability, and system obsolescence? There is
        no option to finding answers, however, because the alternative is
        irretrievable information, unverifiable documentation, diminished
        government accountability, and lost history.

        Federal agencies are required to make and preserve complete and accurate
records of their organization, functions, policies, decisions, procedures, and
essential transactions to (1) support their current operations, (2) enable review of
their actions and (3) promote accountability. Records can exist in a variety of forms,
such as paper, film, magnetic tape, and diskette. At SBA, the Office of
Administration is primarily responsible for records management, however, every
agency employee has some records management responsibility.

      ERM involves the creation, maintenance, use, and disposition of computer
generated records. ERM requirements and guidance at SBA include

   •	 36 Code of Federal Regulations (CFR) 1222 - Creation and Maintenance of
      Federal Records,
   •	 36 CFR 1228 - Disposition of Federal Records,
   •	 36 CFR 1234 - Electronic Records Management,
   •	 OMB Circular A-130, Appendix III - Security of Federal Automated

      Information Resources, and

   •	 SBA Standard Operating Procedure (SOP) 00 41 2 - Records Management
      Program.

       SBA creates, maintains, and relies on a variety of electronic records to
conduct its missions and document its activities. These records include
approximately 20,000 mainframe computer tapes containing financial and
programmatic information, e-mail correspondence, internet files, and on-line
notices, policies and procedures.

                                     METHODOLOGY

        We reviewed laws, regulations, policies and procedures related to ERM;
interviewed SBA officials and contractor personnel involved in ERM; and distributed
questionnaires to 12 SBA program offices in headquarters and 3 district offices.

                                    SURVEY RESULTS

        SBA’s had not implemented a comprehensive ERM program. The survey
found

   •	 SBA had not developed complete inventories and disposition schedules for
      its electronic records,
   •	 Program offices were not aware of ERM requirements, and
   •	 ERM guidance was lacking.


                                          2

      Lack of a comprehensive ERM program could result in

   •	 Unavailability of accurate and timely information needed for reliable decision
      making, operational activities and meeting legal requirements,
   •	 Inefficiencies such as excessive time spent seeking records and costs of
      maintaining unnecessary or duplicative records, and
   •	 Negative publicity if critical records are lost.

       We found that SBA was, however, making progress in this area. During the
survey, the Office of Administration and the Chief Information Officer initiated
projects to update the Records Management SOP, identify the agency’s strategic
ERM requirements and evaluate automated ERM systems. Further details on
problems noted during the survey follow.

Inventories and Disposition Schedules for Electronic Records

        SBA had not developed complete inventories and disposition schedules for
its electronic records. In order to properly manage electronic records, inventories
should be prepared and maintained that include descriptions, media, locations,
volumes, inclusive dates, informational content, and use (36 CFR 1228.22).
Disposition schedules are needed to ensure efficient, prompt and orderly reduction
in the quantity of records and to provide for the proper maintenance of permanent
records (36 CFR 1228.10).

       SOP 00 41 02 had a listing of SBA’s official records and disposition
schedules. The SOP did not, however, include electronic records prepared and
maintained by eight of the offices responding to the survey questionnaire. In
addition, neither the SOP nor an inventory from OCIO have all the information
required by 36 CFR 1228.22 for the electronic records that were identified. This
occurred, in part, automated information systems were developed without thorough
consideration of ERM requirements.

ERM Awareness

       Some program offices were not aware of ERM requirements. For example,
questionnaire responses showed a lack of understanding that (1) electronic records
should be included in the schedules listed in the Records Management SOP, and
(2) descriptions, retention requirements and disposition schedules for electronic
records should be developed and submitted to the Office of Administration. The
Office of Administration was working with the SBA program offices to develop
comprehensive records disposition schedules.




                                         3

        Other offices, while aware of ERM requirements, expressed a need for (1)
inclusion of ERM considerations in systems development projects, (2) assignment
of responsibilities, and (3) development of disposition schedules.

ERM Guidance

        Several offices indicated in their questionnaire responses a need for
additional guidance, as well as training, in areas such as distinguishing “record”
from “non-record” material, storage and retention requirements, responsibilities,
and handling of e-mail. The Office of Administration did provide some ERM
guidance and training, however, it stated that it did not have funding for an agency-
wide electronic records management program to ensure all employees were aware
of their ERM responsibilities.

       The Records Management SOP described the possible forms of electronic
records in stating that “electronic files that may meet the definition of official records
include e-mail, voice mail, floppy disks, and fax and Internet transmissions.” It did
not, however, give specific examples for determining when such materials are
records or not.

                                 RECOMMENDATION

      We recommend that the Associate Deputy Administrator for Management
and Administration implement an Electronic Records Management program that
meets the requirements of 36 CFR 1222, 36 CFR 1228, and 36 CFR 1234, such as

   •	 Ongoing training for all agency personnel on policies, responsibilities, and
      techniques for the implementation of recordkeeping requirements and the
      distinction between record and nonrecord materials, regardless of media,
      including those materials created by individuals using computers to send or
      receive electronic mail.
   •	 Preparation of an inventory of electronic records that includes description of
      medium, location, volume, inclusive dates, informational content and use.
   •	 Development and implementation of disposition schedules for all electronic
      records created and received by the agency.
   •	 Procedures for the participation of records management officials in
      developing new or revised agency programs, processes, systems, and
      procedures in order to ensure that adequate recordkeeping requirements
      are established and implemented.


                                MANAGEMENT RESPONSE




                                            4

   In response to the draft report, the Associate Deputy Administrator for
Management & Administration indicated her awareness of the importance of
electronic records management.




                                    5

                                Distribution List



Assistant Administrator for Administration
Chief Financial Officer
Chief Information Officer
General Counsel




                                     6

